              OFFICE OF INSPECTOR GENERAL
             CORPORATION FOR NATIONAL AND
                  COMMUNITY SERVICE


              Results of Agreed Upon Procedures to the
               Retired and Senior Volunteer Program
                   of Bergen County Incorporated
               Grant Numbers 34OAO47- 19,20 and 2.1

          Office of Inspector General Report Number 03- 12
                           January 3 1,2003




                            Prepared by:

                    Office of Inspector General
          Corporation for National and Community Service
                      1201 New York Avenue
                      Washington, DC 20525




This report was issued to Corporation Management on January 3 1,2003.
                          Results of Agreed Upon Procedures to the
             Retired and Senior Volunteer Program of Bergen County Incorporated
                           Grant Numbers 34OAO47- 19-20and 2 1

                                                Table of Contents


Executive Summary.. ................................................................................ 1

Overview of RSVP of Bergen County ................................................................................. 1

Background of the RSVP Program .......................................................................................   3


Objectives. Scope q d Methodology.................................................................................... 3

Results of Agreed Upon Procedures (Enclosure 1).............................................................. 5
                                                                                    CORPORATION

                                                                                     FOR NATIONAL

                                                                                     SERVICE



January 3 1,2003


Ms. Tess Scannell, Director
National Senior Service Corps
Corporation for National and Community Service
120 1 New York Avenue
Washington, DC 20525


As suggested by Mr. Stanley Gorland, the New Jersey State Director for the Corporation
for National and Community Service (CNCS), we performed agreed upon procedures to
the Retired and Senior Volunteer Program (RSVP) of Bergen County's Grant Numbers
340A047-19, 20 and 21. The purpose of this review was to determine if grant funds were
used to promote and support volunteer activity and in a manner that complied with the
terms and conditions of these grants. From January 1, 2000 to June 30, 2002, the
Corporation authorized reimbursement payments totaling $200,565 to RSVP of Bergen
County.

Executive Summary

RSVP of Bergen County spent CNCS funding to promote retired and senior volunteerism
and volunteer activities. However, it failed to recruit and retain the total number of
volunteers that were projected in its budget requests and also failed to satisfy the award
requirement that at least 25 percent of the CNCS funding be used for volunteer expenses
and cost reimbursements. In Fiscal Years 2000 and 2001, the shortfalls were $4,611 and
$12,605, respectively. Since the grantee relinquished its third year grant and is no longer
operational, no recommendation is made to recoup grant costs for failure to meet the
budgeted number of volunteers and for not spending at least 25 percent on volunteer
expenses. The detailed results of this application of agreed upon procedures are
described in Enclosure 1.

Overview of the RSVP of Bergen County

Prior to its cessation of operations in June 2002, RSVP of Bergen County, a non-profit
organization, established under New Jersey laws, facilitated and arranged for the use of
non-compensated senior citizens to provide various support services to hospitals, schools,


                                                                                 Inspector General
                                                                                 1201 New York Avenue. NW
                                                                                 Washington, I)C 20525
and charitable organizations located in the county. The CNCS awarded three grants to
RSVP of Bergen County in the following amounts:

       Grant No. 34OAO47- 19 for Calendar Year 2000        $83,999
       Grant No. 340A047-20 for Calendar Year 2001         $86,630
       Grant No. 340A047-20 for Calendar Year 3002         $78,058
       Total Award Amount                                 $248,687

However, for the entire thirty-month grant period, CNCS made total reimbursement
payments of only $200,565 ($83,999 for Calendar Year 2000, $79,008 for 2001 and
$37,558 for the first six months of 2002). RSVP of Bergen County did not submit
claimed reimbursable costs for the balance of the available grant funds for calendar year
2001. Due to the grantee's cessation of operations the calendar year 2002 grant award
was modified to $37,558.

The lower actual expenditures were attributable to the grantee's inability to obtain the
number of volunteers projected in its budget. For all grant years, the budget projected
that RSVP of Bergen County would have 745 volunteers. In its Project Data Report as of
September 30, 2001, the grantee listed only 126 RSVP volunteers or approximately 16.9
percent of the budgeted number.

On May 3 1, 2002, the Board of Trustees of RSVP of Bergen County distributed a memo
to the RSVP volunteers, stations and the CNCS State Office advising them of its decision
to close the offices of RSVP of Bergen County and to relinquish the balance of the CNCS
grant for Calendar Year 2002.

The mission of RSVP'of Bergen County was to offer opportunities for persons 55 and
older to engage in community-based service to address educational, public safety,
economic, environmental and other needs in the county. The work performed included
volunteering at hospitals, participating in the Chore Program making minor repairs for
elderly and handicapped persons, assisting the Bergen County Probation Department's
child support efforts, providing support to Red Cross Blood Drives and serving at the
New Jersey Veterans Home in Paramus. In addition, RSVP of Bergen County ran the
"Clowns on Call", "Billy" and "America Reads" programs. "Clowns" provided
entertainment at various functions throughout the county such as a fun run to raise
money. The "Billy" Program was an effort to teach children about the effects of
substance abuse. "America Reads" provided seniors for one on one tutoring to help
children learn to read.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended
the National and Community Service Act of 1990, established the Corporation for
National and Community Service.
The Corporation, pursuant to the authority of the Act. awards grants and cooperative
agreements to State Commissions. nonprofit entities and tribes and territories to assist in
the creation of full and part-time national and community service programs. Through
these grantees. AmeriCorps members and others perform service to meet the educational.
human, environmental. and public safety needs throughout the nation, especially
addressing those needs related to poverty. The Corporation's Retired and Senior
Volunteer Program (RSVP) provides grants to qualified agencies and organizations for
the dual purpose of engaging persons 55 and older in volunteer service to meet critical
needs and to provide a high quality experience that will enrich the lives of volunteers. In
return for their service, RSVP volunteers receive reimbursement for transportation to and
fiom their assignments. accident insurance, personal liability and automobile insurance,
free meals at host institutions, recognition and physical examinations.

The State Office noted exceptions to the grantee's recordkeeping system after an April
2001 site visit. For Fiscal Year (FY) 2000, Grant No. 340A047-19, the grantee attempted
to support grant costs reported on its Financial Status Reports (FSRs). Extensive
documentation was provided. The CNCS State Program Specialist reviewed that
documentation and provided feedback comments to RSVP of Bergen County. Numerous
deficiencies were noted and recommendations for corrective action were made.

During an April 2002 site visit, the CNCS State Program Specialist gathered data to
support the FY 2001 grant expenditures (Grant No. 340A47-20). The data collected
during this site visit again revealed program shortfalls. Actual volunteer recognition costs
and volunteer travel costs incurred were much less than budgeted amounts. This resulted
from failure to obtain the budgeted number of volunteers. The Government Performance
and Results Act Project Data Report as of September 30, 2001, reported 126 RSVP
volunteers. The budget estimated 745 volunteers for all three grant years.

On May 31, 2002, RSVP of Bergen County sent a notification memorandum to its
volunteers, stations and the CNCS State Office. It announced the Board of Trustees'
decision to close the program with an effective date of June 30,2002.

Since the grantee gave up its workspace, had no employees, boxed and stored its financial
and other records and implemented the Board of Trustees' decision to dissolve, OIG
elected to use agreed upon procedures in evaluating the three grants awarded to RSVP of
Bergen County.

Objectives, Scope, and Methodology

The scope of this engagement was to compare CNCS funding to documentation obtained
from the grantee and to program costs reported on the audited financial statements for
fiscal years 2000 and 2001. We also wanted to analyze the number of volunteers working
under the grant and whether the 25 percent volunteer expense requirement was met.
Specific procedures included:

       Comparison of the supporting documentation available to grant budgets and grant
       funding
       Comparison of grantee program costs from the audited financial statements to
       grant funding
       Review of information from the State Office files to determine that volunteer
       activities actually occurred.
       Comparison of the number of volunteers budgeted to the number reported on the
       FSRs
       Calculation of the percent of volunteer expenses in relation to grant costs.

This agreed upon procedures engagement was performed in accordance with generally
accepted government auditing standards issued by the Comptroller General of the United
States. The sufficiency of the procedures is solely the requestor's responsibility. By
specifying the procedures, the National Senior Service Corps was responsible for
ensuring that they were sufficient to meet their objectives, and we make no
representations in that respect. The specific procedures are enumerated above. The
detailed results of those procedures are provided in Enclosure 1.


Distribution

This report is intended solely for the use of the Office of Inspector General, the
Corporation management and the U.S. Congress, and is not intended to be and should not
be used by anyone other than these specified parties.




J. Russell George
Inspector General
Corporation for National and Community Service
Washington, D.C.




Copy to:
Michelle Guillermin, CFO
Rocco Gaudio, Director, CNCS Atlantic Service Center
Stanley Gorland, CNCS New Jersey State Program Director
                                                                           Enclosure 1



                           Results of Agreed Upon Procedures

This report pertains only to the performance of agreed-upon procedures to determine if
the grant awards were used to support and promote volunteer activities. We were not
engaged to, and did not, perform an examination, the objective of which would be the
expression of an opinion on the subject matter of this report. Accordingly, we do not
express such an opinion. Had we performed additional procedures. other reportable
matters might have come to our attention.

Our comparison of grant costs reimbursed to supporting documentation obtained during
site visits and to RSVP of Bergen County's Financial Statements shows that all CNCS
funding was spent to support volunteer activities. For the periods covered by this
application of agreed upon procedures, total grantee expenses exceeded its revenues.
Since the grantee relinquished its third year grant and is no longer operational, no
recommendation is made to recoup grant costs for failure to meet the budgeted number of
volunteers and for not spending at least 25 percent on volunteer expenses that include
such costs as transportation, meals, recognition, and insurance.

The tables below provide the results of the agreed upon procedures. The first table
compares the amounts awarded to the amount supported from documentation provided
and the amount reported as program expenses in the financial statements.




     I            I      Grant       I              I    Financial Statement     I
          Year        AwardlBudget       Support         Program Expenses
          2000          $83,999          $61,831              $126,096
          200 1         $79.088 *        $93.345              $153.992



*        The grant award for 2001 was $86,630. However, RSVP of Bergen County spent
         only $79,088. The difference between the grant award and expenditures was
         reimbursed to the Corporation.
                                                                            Enclosure 1



The table below shows the number of volunteers reported on the quarterly FSRs. For
each grant. the number of volunteers budgeted was 745.

                            Volunteers Reoorted bv Ouarter

                              1-   2000    Re orted




The following table compares the required share for volunteer expenses and the amount
reported on the FSRs. Title 45, Code of Federal Regulations, section 2553.72 (e) requires
that, "The total volunteer expenses and cost reimbursements.. .shall be an amount equal
to at least 25 percent of the Corporation funds in the grant award. Corporation and non-
Corporation resources may be used to make up this sum."


                 1 Federal Monies I
     Year            Received         25% of Fed.          Actual           Shortfall
     2000            $83,999            $2 1,000          $16,389            $4,6 1 1
                                                                       I                    I
